OFFICE OF AUDIT
REGION V
CHICAGO, IL




                  Hammond Housing Authority
                       Hammond, IN

    American Recovery and Reinvestment Act Public
             Housing Capital Fund Grant

     The Authority Did Not Administer Its Grants in
     Accordance With Recovery Act, HUD’s, and Its
                  Own Requirements


2012-CH-1009                                  AUGUST 3, 2012
                                                        Issue Date: August 3, 2012

                                                        Audit Report Number: 2012-CH-1009




TO: Forrest Jones, Program Center Coordinator, Office of Public Housing, 5HPH

      //signed//
FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA


SUBJECT: The Hammond Housing Authority, Hammond, IN, Did Not Administer Its
            Recovery Act Grants in Accordance With Recovery Act, HUD’s, and Its Own
            Requirements


    Enclosed are the U.S. Department of Housing and Urban Development (HUD) Office of
Inspector General’s (OIG) final results of the audit of the Hammond Housing Authority’s
American Recovery and Reinvestment Act Public Housing Capital Fund stimulus formula and
competitive grants.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 913-8684.
                                              August 3, 2012
                                              The Hammond Housing Authority, Hammond, IN, Did Not
                                              Administer Its Recovery Act Grants in Accordance With
                                              Recovery Act, HUD’s, and Its Own Requirements



Highlights
Audit Report 2012-CH-1009


    What We Audited and Why                    What We Found

We audited the Authority’s Recovery           The Authority did not administer its grants in
Act formula and competitive grants.           accordance with Recovery Act, HUD’s, and its own
The audit was part of the activities in       requirements. While the Authority generally obligated
our fiscal year 2012 annual audit plan.       and expended its Recovery Act funds in accordance
We selected the Authority based upon          with Recovery Act rules and regulations, it did not
our analysis of risk factors related to the   ensure small purchases or contracts above its small
housing agencies in Region V’s 1              purchase threshold were properly procured and
jurisdiction. Our objective was to            executed in accordance with HUD’s requirements and
determine whether the Authority               its own procurement policies. Further, it did not
administered its grants in accordance         ensure Federal and its own procurement requirements
with Recovery Act, HUD’s, and its own         were followed when change orders were approved for
requirements.                                 work items that were outside the scope of work for the
                                              construction contracts.
    What We Recommend
                                              The Authority also did not ensure that Recovery Act
                                              grant funds were (1) disbursed within HUD’s required
We recommend that the program                 timeframe, (2) properly allocated and drawn from
coordinator of the Office of Public           appropriate budget line items, and (3) spent on eligible
Housing require the Authority to (1)          items.
provide documentation or reimburse
HUD $174,471 from non-Federal funds           The Authority did not ensure that its contractors
for transmission to the U.S. Treasury         complied with buy-American requirements of the
for inappropriate change orders, (2)          Recovery Act, the Davis-Bacon Act, and HUD’s
support or reimburse HUD more than            Section 3 Act of 1968. It also did not accurately report
$106,000 from non-Federal funds for           its Recovery Act information for all three Recovery
transmission to the U.S. Treasury, (3)        Act grants in FederalReporting.gov.
pursue collection of $7,000 from its
mixed finance development partner             These deficiencies resulted in $1,625 in ineligible
from non-Federal funds, and (4)               costs, $281,049 in unsupported costs, and $7,000 in
implement adequate procedures and             funds to be put to better use. Additionally, the public
controls to address the findings cited in     did not have access to accurate information relating to
this audit report.                            the Authority’s expenditures of the Recovery Act
                                              funds.
1
 Region V includes the States of Illinois,
Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
                            TABLE OF CONTENTS

Background and Objective                                                                 3

Results of Audit
      Finding 1: The Authority Did Not Comply With HUD’s and Its Own Procurement
                 Requirements                                                            5

      Finding 2: The Authority Did Not Always Administer Its Grant Funds Appropriately 10

      Finding 3: The Authority Did Not Ensure That Its Contractors Complied with Buy-
                 American, Davis-Bacon, and HUD’s Section 3 Requirements                13

      Finding 4: The Authority Did Not Accurately Report Recovery Act Information       17

Scope and Methodology                                                                   21

Internal Controls                                                                       24

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                    26
   B. Auditee Comments and OIG’s Evaluation                                             27
   C. Federal and the Authority’s Requirements                                          31




                                            2
                       BACKGROUND AND OBJECTIVE

The Hammond Housing Authority was established by the State Housing Board of Indiana in May
1938 under the laws of the State of Indiana to provide decent, safe, and sanitary housing. The
Authority is governed by a seven-member board of commissioners. The mayor of Hammond
appoints the commissioners to serve a 4-year or less staggered term. As of October 11, 2011, the
Authority had seven commissioners on its board. The board’s responsibilities include overseeing
the administration of the Authority and approving policies. The board appoints the executive
director, who is responsible for ensuring that the policies are followed and providing oversight of
the Authority’s programs.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital and
management activities, including the modernization and development of public housing. The
Recovery Act required that $3 billion of these funds be distributed as formula grants and the
remaining $1 billion be distributed through a competitive process. In accordance with the Recovery
Act, HUD provided grants funded competitively to public housing authorities to carry out priority
capital and management activities in public housing through four funding categories to include (1)
improvements addressing the needs of the elderly and/or persons with disabilities, (2) public
housing transformation, (3) gap financing for projects that were stalled due to financing issues, and
(4) creation of energy efficient green communities.

In March 2009, the Authority received a formula grant for more than $1.6 million. In September
2009, the Authority received a competitive grant of $10 million for public housing transformation
and another competitive grant totaling $572,000 for improvements addressing the needs of the
elderly and person with disabilities (senior grant). The Authority was required to obligate 100
percent of its grant funds within 1 year, expend 60 percent of the funds within 2 years, and fully
expend the funds within 3 years. The Authority had obligated and expended all of its formula and
competitive transformation grant as of December 21, 2010, and October 19, 2011, respectively. As
of February 27, 2012, the Authority had obligated and expended nearly 84 percent of its competitive
senior Recovery Act grant.

The Authority loaned the competitive transformation grant of $10 million to its for-profit entity for
a mixed-finance development as approved by HUD. The Authority’s nonprofit organization was
responsible for developing this mixed-finance development. In addition, the for-profit entity,
American Heartland Homes One, Limited Liability Corporation, which was established by the
Authority’s nonprofit organization, is the owner and the Authority is the property manager. The
Authority was responsible for ensuring the for-profit entity followed HUD’s regulations.

In addition, according to an Authority employee, who is also the American Heartland Homes
property manager, the Authority’s procurement policy applies to the American Heartland Homes
One since the Authority is its contracted property manager.

Our objective was to determine whether the Authority administered its grants in accordance with
Recovery Act, HUD’s, and its own requirements. Specifically, we wanted to determine whether

                                                  3
the Authority (1) appropriately procured contracts for grant projects; (2) appropriately administered
its Recovery Act grant funds; (3) ensured that its contractors followed Recovery Act, HUD’s, and
its own requirements; and (4) correctly reported its expenditures of Recovery Act grant funds in
FederalReporting.gov.




                                                  4
                                RESULTS OF AUDIT

Finding 1: The Authority Did Not Comply With HUD’s and Its Own
Procurement Requirements
The Authority procured and executed small purchases or contracts above its small purchase
threshold contrary to HUD’s and its own procurement requirements. Additionally, it (1)
incorrectly disposed of housing units for less than the assessed values and (2) inappropriately
approved change orders. This condition occurred because the Authority lacked an understanding
of Federal and its own procurement requirements. It also lacked adequate controls to ensure
compliance with HUD’s and its own requirements. As a result, HUD and the Authority lacked
assurance that services were procured at the best price and competition was open.


 Small Purchases Were Not
 Properly Administered

              The Authority’s small purchase threshold was $75,000 for the purchase of goods and
              construction contracts. It used small purchase contracts to procure services using
              funds from its Recovery Act competitive transformation grant. For both of the work
              items we reviewed, the Authority failed to ensure that required documentation was
              obtained and maintained in accordance with HUD’s requirements and its own
              policies and procedures. The two items reviewed totaling more than $39,000 were
              for (1) phase I environmental site assessment with liability insurance clause and (2)
              asbestos air clearance testing. Documentation was not maintained to support

                  •   Quotes were solicited for both of the work items, and
                  •   Independent cost estimates were completed for one work item.

              For the procurement of the environmental assessment, the Authority’s
              modernization director stated, review of available time and cost constraints led to a
              determination that it would be advantageous to negotiate a contract with the
              company, Amereco to prepare a new phase I report with the required insurance
              clauses as opposed to reprocuring. The environmental site assessment was
              completed three times in total by two companies and was paid for accordingly.
              Also, the need for a company conducting the review to have specific insurance
              clauses and the time period of having the report completed constituted as a new
              scope, for which the small purchases requirements should have been followed.
              Further, HUD’s regulations require solicitation of quotes from at least three
              companies even by telephone. However, there was no documentation to support
              quotes were solicited for the environmental site assessment. Recovery Act funds
              totaling $12,300 were paid for the environmental site assessment.
              For the removal of asbestos, the Authority contracted with a company that it had
              used previously instead of following its procurement policies and Federal
                                                5
           requirements. Recovery Act transformation grant funds totaling $26,875 were
           paid for the inappropriately procured service.

Procurement Documents for
Above Small Purchase
Threshold Contracts Were Not
Consistently Maintained

           The Authority executed three contracts above its small purchase threshold for its
           formula and competitive senior grants. In addition, the Authority’s nonprofit or for-
           profit entity executed four contracts above its small purchase threshold for the
           competitive transformation grant. We reviewed the contract files and procurement
           documentation for all three contracts for the formula and senior grants and two
           contracts for the transformation grant. The Authority failed to ensure that

               •   A public notice was issued in accordance with its procurement policy for all
                   five contracts reviewed,
               •   A public bid opening was identified for two sealed bid contracts,
               •   The statement of award was included in the public notice and the solicitation
                   for two sealed bid contracts,
               •   Accurate bid tabulation was conducted or bid forms were maintained on file
                   to match the bid tabulation for two contracts,
               •   An addendum was issued to the request for proposal for one contract,
               •   The effective date of two contracts was accurate,
               •   An independent cost estimate was prepared before the issuance of the
                   solicitation for one contract, and
               •   Board approval was obtained before the contract award was made for one
                   contract.

           According to the Authority’s procurement policy, purchases over $75,000 must be
           approved by the board of commissioners. For one contract, involving the
           procurement of a consultant for the mixed-finance development, the board
           approved the contract on October 22, 2008, and the award notification was issued
           on October 23, 2008. However, the rejection letters to the unsuccessful firms
           were dated August 26, 2008, which was before the board’s approval.

Units Were Sold at Less Than
the Assessed Value

           For the mixed-finance development, the Authority was required to sell a portion of
           its existing project to the for-profit entity. HUD’s Special Applications Center
           approved the Authority’s request to dispose of 112 units. According to the warranty
           deed, the Authority sold 112 housing units for $940,000. However as of May 1,
           2010, the appraiser determined that the assessed value was $940,000 for 110 units,
           instead of 112 units. Regulations at 24 CFR (Code of Federal Regulations)
                                             6
           970.19(a) state that when HUD approves the disposition of real property of a
           development, in whole or in part, the Authority must dispose of the property
           promptly for not less than fair market value.

           Using the methodology applied by the appraiser, we determined that the two
           additional units, for which the Authority did not obtain cash or which it did not
           include under the terms of the promissory note, would be assessed at
           approximately $7,000.

The Approval of Change
Orders Limited Competition

           The Authority approved change orders that were outside the general scope of work
           for two of its Recovery Act-funded contracts. Specifically, for the construction
           contract for its highrise project, the Authority inappropriately approved 6 of the 17
           change orders totaling $24,950 ($6,859 from the Recovery Act formula grant +
           $8,753 from the Recovery Act competitive senior grant + $9,338 from the annual
           Capital Fund grant). For the townhomes project, the Authority inappropriately
           approved three change orders totaling $6,529 ($5,542 from the Recovery Act
           formula grant + $987 from the annual Capital Fund grant). Further, the Authority’s
           for-profit entity approved change orders that were outside the general scope of work
           for one construction contract. Specifically, for the Authority’s American Heartland
           Homes One project, the Authority’s nonprofit or for-profit entity inappropriately
           approved seven change orders totaling $265,882 ($153,318 from the Recovery Act
           competitive transformation grant + $112,564 from the annual Capital Fund grant).
           The inappropriate change orders totaled $297,361, of which $174,471 was from the
           Recovery Act grants.

           HUD’s regulations provide that the contracting officer may at any time, without
           notice to the sureties, by written order designated or indicated to be a change order,
           make changes in the work within the general scope of the contract, including
           changes in (1) the specifications (including drawings and designs); (2) the method or
           manner of performance of the work; (3) Authority-furnished facilities, equipment,
           materials, services, or site; or (4) directing the acceleration in the performance of the
           work. All three of these contracts were procured using either sealed bidding or a
           request for proposal. However, since the Authority approved 16 change orders that
           were outside the general scope of the original contracts, it should have procured the
           services competitively in accordance with HUD’s requirements.

           The Authority or its for-profit entity lacked documentation to support that the
           installation of remote readers and water meters was denied by the city’s water
           department, causing the for-profit entity to install the readers and meters using
           Recovery Act funds totaling $20,575.




                                              7
The Authority Lacked an
Understanding of Federal and
Its Own Procurement
Requirements

             The Authority lacked an understanding of Federal and its own procurement
             requirements. It also lacked adequate controls to ensure compliance with HUD’s
             requirements. According to the Authority, the changes to the scope of work for
             the three contracts were for the betterment of the projects and were the result of
             time and cost constraints. Therefore, it believed that these modifications were
             necessary.

Conclusion

             The Authority procured and executed small purchases or contracts above its small
             purchase threshold contrary to HUD’s and its own procurement requirements.
             Additionally, it (1) incorrectly disposed of housing units for less than the assessed
             values and (2) inappropriately approved change orders. As a result, HUD and the
             Authority lacked assurance that contracts were properly procured and executed.

Recommendations

             We recommend that the program center coordinator of HUD’s Office of Public and
             Indian Housing require the Authority to

             1A. Provide documentation to show that the contract costs for its phase I
                 environmental site assessment were reasonable or reimburse HUD $12,300
                 from non-Federal funds for transmission to the U.S. Treasury.

             1B. Provide documentation to show that the contract costs for the testing of
                 asbestos were reasonable or reimburse HUD $26,875 from non-Federal funds
                 for transmission to the U.S. Treasury.

             1C. Implement adequate quality controls to ensure that contracts are procured and
                 executed in accordance with Federal requirements and its own policies and
                 procedures.

             1D. Negotiate with its for-profit entity an amendment to the promissory note to
                 reflect the appropriate fair market value of 112 units and pursue collection of
                 the funds owed, which are estimated to be $7,000.

             1E. Provide documentation or reimburse HUD $174,471 from non-Federal funds
                 for transmission to the U.S. Treasury for the Recovery Act grants funds used
                 for inappropriate change orders cited in this finding.


                                               8
1F. Provide documentation or reimburse HUD $20,575 from non-Federal funds
    for transmission to the U.S. Treasury for the ineligible change orders cited in
    this finding.

1G. Implement adequate quality control procedures to ensure that its for-profit’s
    contracts are procured and executed in accordance with Federal requirements.




                                  9
Finding 2: The Authority Did Not Always Administer Its Grant Funds
Appropriately
The Authority did not always administer its grant funds appropriately. Specifically, it did not
ensure that Recovery Act funds were disbursed within the required timeframe or allocated and
drawn from appropriate budget line items. Additionally, the Authority used the grant funds to
purchase an ineligible item. This condition occurred because the Authority lacked quality
control procedures for its program grant disbursements. As a result, the U.S. Treasury paid
$1,625 in interest, and HUD and the Authority lacked assurance that the Authority’s books of
record were accurate.


 Recovery Act Grant Funds
 Were Not Disbursed in a
 Timely Manner

               We reviewed 100 percent of the Authority’s funds drawn from HUD’s Line of
               Credit Control System for the Recovery Act formula and competitive transformation
               grants. Also, we reviewed 100 percent of the funds drawn from the Authority’s
               competitive senior grant as of February 27, 2012. The draws were reviewed to
               determine whether disbursements to vendors were timely and eligible items were
               purchased and correctly recorded on its general ledger. Our review was limited to
               the information available in HUD’s system and documents provided by the
               Authority.

               According to HUD’s regulations for a mixed-finance development, the Authority
               must release funds to its for-profit mixed-finance partner, American Heartland
               Homes One, within 2 working days of receiving the funds from HUD. Further,
               American Heartland Homes One was required to distribute funds within 2 working
               days of receipt from the Authority. Contrary to HUD’s requirements, for the
               competitive transformation grant totaling $10 million, the Authority released 13
               requested payments totaling more than $5.3 million (54 percent) to American
               Heartland Homes One in 3 to 11 days of receipt from HUD. Additionally, American
               Heartland Homes did not distribute nearly $839,000 (8 percent) of the grant funds to
               vendors in a timely manner. The number of days that elapsed before the vendors
               were paid ranged from 3 to 305 days.

               In addition, according to HUD’s regulations for Recovery Act competitive grants,
               the Authority must distribute the grant funds within 3 working days of receipt of the
               funds. However for its competitive senior grant, the Authority took 14 days to
               distribute one payment totaling $2,772 in grant funds.




                                                10
Funds Were Not Allocated or
Withdrawn From Appropriate
Budget Line Items

           For the Authority’s $10 million competitive transformation grant, contrary to its
           approved summary budget, which included budget line items 1460 (dwelling
           structure), 1450 (site improvement), 1430 (fees and costs), and 1495 (relocation
           cost), it allocated and drew down all of its funds from budget line item 1499
           (development activities). According to the Authority’s mixed-finance amendment to
           its consolidated annual contributions contract, the project should be developed in
           accordance with the HUD-approved budget and sources and uses set forth in exhibit
           F of the mixed-finance annual contributions contract amendment. In addition,
           according to the Authority, HUD now requires it to identify and separate the funds
           among the appropriate approved budget line items as a result of its review.

Grant Funds Were Used For an
Ineligible Item

           According to Federal regulations, Recovery Act grants cannot be used for the
           purchase of operational items. However, when we reviewed the Authority’s
           invoices and payments, we determined that it purchased an operational item, a
           backup device for an electrical power outlet, using $80 from its Recovery Act
           competitive senior grant.

The Authority’s Invoice
Payment Procedure Lacked
Quality Controls

           The Authority lacked quality control procedures for its program grant
           disbursements. According to the Authority’s procedures, its modernization director
           codes invoices to be paid by specific grants, and the accounts payable manager
           records the journal entries and then issues checks once they both are approved by the
           finance administrator. However, the finance administrator does not receive the
           coded invoices or review the accounts used for payment of the invoices when
           approving the journal entries for issuance of the checks.

           Consequently, funds from the Authority’s competitive transformation grant totaling
           $15,626 were used to pay for activities not related to the mixed-finance
           development. Although the Authority discovered the error and attempted to correct
           it, the Authority incorrectly reversed a charge of $8,775, which had been correctly
           paid from the Recovery Act competitive transformation grant.

           In addition, for the Recovery Act formula grant, the Authority did not record a
           charge of nearly $3,072 that it incurred in June 2010 on its books of record.

                                            11
                 According to the Authority’s finance administrator, the expenses were not
                 recorded due to an oversight. Therefore, the accounts payable manager made a
                 correcting journal entry on December 16, 2011, to record the expenses.

    Conclusion

                 The Authority did not ensure that funds were disbursed and paid within HUD’s
                 required timeframe, records adequately identifying the source and application of
                 funds provided for financially assisted activities were maintained, and only
                 eligible items were purchased. This condition occurred because the Authority
                 lacked quality control procedures for its program grant disbursements to ensure
                 that the Authority and its for-profit entity administered the Recovery Act grants in
                 accordance with HUD’s requirements. As a result, the Authority caused the U.S.
                 Treasury to pay $1,625 in interest 2. In addition, HUD and the Authority lacked
                 assurance that the Authority’s books of record were accurate.

                 Since the Authority’s Recovery Act grant funds are fully or almost fully
                 disbursed, we do not make a recommendation for developing and implementing
                 adequate procedures and controls to ensure it accurately allocates funds to
                 appropriate budget line items, and funds are used for eligible activities.

    Recommendations

                 We recommend that the program center coordinator of HUD’s Office of Public and
                 Indian Housing require the Authority to

                 2A. Reimburse HUD $1,625 from non-Federal funds for transmission to the U.S.
                     Treasury for interest incurred due to its untimely disbursement of funds.

                 2B. Maintain adequate books of record that identify the sources and applications of
                     funds provided for financially assisted activities.




2
 Our determination of the interest amount paid by the U.S. Treasury is included in the Scope and Methodology
section of this report.

                                                       12
Finding 3: The Authority Did Not Ensure That Its Contractors
Complied With Buy-American, Davis-Bacon, and HUD’s Section 3
Requirements
The Authority did not ensure its contractors complied with buy-American, Davis-Bacon Act, and
HUD’s Section 3 Act of 1968 requirements. This condition occurred because the Authority
lacked an understanding of Federal requirements and adequate quality control procedures to
ensure that its contractors and its for-profit entity’s contractors followed Federal requirements.
As a result, one of its contractors purchased products totaling $46,828 that did not meet buy-
American requirements, and 22 of the weekly payroll reports reviewed did not identify the
payment method of fringe benefits. In addition, the Section 3 clause was not included in 12 of
the contracts reviewed.


 The Authority Did Not Follow
 the Buy-American
 Requirements of the Recovery
 Act

               According to Federal regulations, the Authority was required to ensure that its
               contractors purchased iron, steel, and manufactured goods for the project that were
               produced in the United States. The Authority executed two construction contracts,
               and the Authority’s for-profit entity executed one construction contract, for which
               the Recovery Act formula, competitive senior, and competitive transformation
               grants funds were used.

               We randomly reviewed 16 of at least 1,781 items purchased in completing the three
               projects. We reviewed the items to determine whether the goods were manufactured
               in the United States. Our review was limited to the invoices provided by the
               Authority, contractors, an online search of the manufacturers of the products, direct
               contact with the manufacturers, and physical examination of the products.

               Contrary to Federal regulations, the Authority did not ensure that its heating,
               ventilation, and air conditioning equipment totaling $2,973 and ceramic floor tiles
               totaling $2,060 were manufactured in the United States. In addition, it did not
               ensure that tankless water heaters totaling $84,514, thermostats totaling $2,519
               ($1,926 of which was from the Recovery Act funds), refrigerators totaling $44,856,
               and hardware cloth totaling $46 used by the Authority’s for-profit entity were
               manufactured in the United States.

               According to the Authority’s modernization director, the Authority was aware that
               the air conditioning units, floor tiles, and the tankless water heaters were not
               manufactured in the United States. The Authority submitted to HUD a request for
               an exemption from the buy-American requirements for the air conditioning units in
               August 2010. However, it did not receive any correspondence from HUD at the

                                                13
                 time and did not follow up on its exemption request until 1 year later in October
                 2011, following the audit team’s inquiry. For the floor tiles and water heaters, the
                 modernization director said that the Authority or its for-profit entity did not need an
                 exemption approved by HUD since the United States has a world trade agreement
                 with the countries3 in which these products were manufactured. However, Federal
                 regulations provide that the world trade agreements apply only if the Authority was
                 a party to the international agreement and listed on the appendix of Federal Register
                 Volume 74, Number 77, issued on April 23, 2009. Since the Authority was not
                 included on the appendix of this register, a HUD exemption from the buy-American
                 requirement was necessary.

                 The Authority’s modernization director said that the U.S. Department of Energy
                 granted a waiver of the buy-American requirements for the air conditioning units
                 and tankless water heaters and, therefore, the Authority was not required to seek an
                 exemption of the requirements from HUD. However, HUD’s regulations stated that
                 the Authority did not need a waiver from HUD if another Federal agency had issued
                 a waiver, except when a public housing project was involved. The waiver granted
                 by the Department of Energy did not identify whether a public housing project was
                 involved.

                 As of July 2012, the Authority had submitted a waiver to HUD for all of the items
                 identified as not having been manufactured in the United States. The Authority later
                 received a waiver from HUD to use the air conditioning units, tankless water
                 heaters, and ceramic floor tiles.

    The Davis-Bacon Act Was Not
    Followed

                 We reviewed 258 randomly selected certified payroll reports to determine whether
                 reports were maintained on file, wage payments included in the reports matched the
                 actual payments, and the method of payment for fringe benefits was identified. Our
                 review was limited to the information provided by the Authority and contractors. Of
                 the 258 weekly reports, 45 (17 percent) were not maintained on file, and the method
                 of payment for fringe benefits was not identified in 22 of the weekly reports. In
                 addition, neither the Authority nor its for-profit entity obtained copies of pay stubs or
                 paychecks to ensure that employees received the wages reported on the payroll
                 documents received.

                 The modernization director said that the Authority was not required to obtain copies
                 of pay stubs or paychecks. However, the employee interview form, a standard and
                 mandatory form to be completed by the Authority, included a field on pay stubs.
                 Therefore, the pay stubs field should have been checked by the interviewer. Further,
                 a periodic sample review of pay stubs or paychecks would provide assurance that the

3
 Italy, Portugal and Mexico, Canada, the Netherlands, the Republic of Korea, the United Kingdom, Israel, and
Japan

                                                       14
             wages included on the payroll reports were accurate and the same as the paycheck
             amount.

             During our audit, the Authority or its contractors were able to obtain and provide
             us copies of the payroll reports cited as missing. In addition, the Authority
             provided documentation to support the method used for the payment of fringe
             benefits for the employees identified in all payroll reports cited in this finding.


The Section 3 Clause Was Not
Included in the Contracts

             Federal regulations require the Authority’s and its for-profit entity’s contractors to
             include the Section 3 clause in every subcontract. We reviewed 17 randomly
             selected contracts for subcontractors to determine whether the Section 3 clause
             was included in those contracts. Contrary to HUD’s regulations, one contract did
             not include the Section 3 clause, and 12 (71 percent) of the 17 contracts did not
             specifically include the Section 3 clause.

The Authority Lacked an
Understanding of Federal
Requirements and Quality
Controls

             The Authority lacked an understanding of Federal requirements. It also lacked
             adequate controls to ensure contractors follow Federal requirements. The
             Authority believed waiver approvals from HUD were not necessary for the usage
             of products not manufactured in the United States, contrary to the Federal
             requirements.

Conclusion

             The Authority failed to ensure that its contractors met the buy-American
             requirements of the Recovery Act and requirements of the Davis-Bacon Act and
             the Section 3 Act of 1968. This condition occurred because the Authority lacked
             an understanding of Federal requirements and adequate quality control procedures
             to ensure that its contractors and for-profit entity’s contractors met these
             requirements. As a result, products totaling $46,828 ($44,856 for refrigerators +
             $1,926 for thermostats + $46 for hardware cloth) that did not meet the buy-
             American requirements of the Recovery Act were purchased using Recovery Act
             grant funds. In addition, HUD and the Authority lacked assurance that the
             contractors met Federal requirements in carrying out construction contracts.

Recommendations


                                              15
We recommend that the program center coordinator of HUD’s Office of Public and
Indian Housing require the Authority to

3A. Provide documentation to support HUD’s approval of its waiver requests or
    reimburse HUD $46,828 from non-Federal funds for transmission to the U.S.
    Treasury for the Recovery Act grant funds used to purchase materials
    manufactured outside the United States.

3B. Ensure that its staff is adequately trained and familiar with Federal contracting
    requirements.

3C. Conduct a sample review of the remaining at least 1,765 items used in three
    construction projects to ensure compliance with the Recovery Act and obtain
    waivers of the buy-American requirements from HUD or reimburse HUD the
    costs from non-Federal funds for transmission to the U.S. Treasury as
    applicable.

3D.   Implement adequate procedures and controls to ensure that contractors
      follow Federal requirements.




                                 16
Finding 4: The Authority Did Not Accurately Report Recovery Act
Information
 The Authority did not accurately report Recovery Act grant information in
FederalReporting.gov. This condition occurred because the Authority lacked an understanding
of Federal requirements and sufficient quality control procedures to ensure accurate reporting of
required information. As a result, the public did not have access to accurate information related
to the Authority’s expenditures of the Recovery Act funds, and its use of Recovery Act funds
was not transparent.


 The Authority Did Not
 Accurately Report Required
 Information

               The Authority did not accurately report information for all three Recovery Act
               grants in FederalReporting.gov. Recovery Act grant recipients were required to
               report the following information in FederalReporting.gov:

                   •   Amount of the Recovery Act grant award,
                   •   Project information for use of the grant funds,
                   •   Number of jobs created or retained with the Recovery Act grant,
                   •   Funds invoiced,
                   •   Funds received,
                   •   Expenditure amount,
                   •   Listing of vendors receiving Recovery Act funds, and
                   •   Vendor transactions and payments.

               We reviewed the Authority’s reporting of funds received, funds expended, number
               of vendors, amount of vendor payments of less than $25,000, and amount of vendor
               payments of greater than $25,000 for the Recovery Act formula, competitive senior,
               and competitive transformation grants for 11 quarters beginning with the quarter
               ending September 30, 2009, through the quarter ending December 31, 2011. We
               reviewed the information to determine whether it was accurately reported. Our
               review was limited to the quarterly reports provided by the Authority.

               Cumulative amounts to the award are required to be reported under the funds
               received and expended field, ensuring that the funds expended cannot exceed the
               amount received. Also, cumulative amounts for the award are required to be
               reported for the vendor payments of less than $25,000 field. In addition, the
               cumulative amount for the award and aggregated amount for each vendor are
               required to be reported for the number of vendor payments and payment amounts of
               more than $25,000.



                                               17
However, the Authority did not accurately report Recovery Act information.
Specifically, it generally underreported the funds received, number of vendors, and
vendor payments of greater than $25,000. In addition, it generally overreported the
funds expended and vendor payments of less than $25,000.

The following three tables list the amounts overreported and underreported for
each of the five fields reviewed by grants.

           Recovery Act formula grant information over/(under)reported in
                               FederalReporting.gov
                                               Vendor payments Vendor payments
Quarter      Funds       Funds    Number of       of less than     of greater than
end date    received expended      vendors         $25,000            $25,000
9/30/09            $0     $3,072            2              $3,072                 $0
12/31/09            0      3,072            2              11,248          (11,248)
3/31/10             0      (152)            2               9,532         (104,261)
6/30/10             0          0            0              14,585         (548,916)
9/30/10             0          0          (1)                (904)        (697,880)
12/31/10            0          0            0              22,681       (1,326,328)


Recovery Act competitive transformation grant information over/(under)reported in
                              FederalReporting.gov
                                               Vendor payments Vendor payments
Quarter    Funds       Funds      Number of       of less than    of greater than
end date received     expended     vendors         $25,000           $25,000
9/30/10         $0      $15,105          (6)           $(64,935)           $80,040
12/31/10         0        24,572         (6)             (62,985)        (878,805)
3/31/11          0        25,847        (18)             (97,721)      (2,830,729)
6/30/11          0       (4,264)        (24)           (113,454)       (5,392,010)
9/30/11          0       (2,376)        (39)           (112,091)       (7,916,062)
12/31/11         0          0.70        (41)           (146,316)       (9,632,040)


      Recovery Act competitive senior grant information over/(under)reported in
                                FederalReporting.gov
                                     Number Vendor payments         Vendor payments
Quarter     Funds       Funds           of        of less than       of greater than
end date   received    expended      vendors        $25,000             $25,000
3/31/10            $0           $0           1              $2,699             (2,699)
6/30/10       (2,772)            0           2               5,511            (33,561)
9/30/10      (36,333)    (36,333)            3              11,316            (44,877)
12/31/10        3,715       3,715            1                 413          (151,941)
3/31/11             0            0           0               (128)          (281,831)
6/30/11             0            0           1              25,731          (309,910)
9/30/11             0            0         (2)             (2,348)          (309,910)
12/31/11          406         406          (2)             (3,227)          (406,902)


                                  18
The Authority Did Not Have
Sufficient Controls

             Since the Authority loaned its Recovery Act competitive transformation grant to its
             for-profit affiliate for the mixed-finance development as approved by HUD, the
             Authority considered its for-profit affiliate as its vendor. The Authority’s financial
             administrator said that the for-profit affiliate was the Authority’s vendor since the
             Authority provided the Recovery Act competitive transformation grant funds to it
             under its mixed-finance agreement. This for-profit affiliate was established by the
             Authority’s nonprofit instrumentality, and the president of the for-profit affiliate was
             the Authority’s executive director. In addition, according to Federal regulations, a
             vendor is a dealer, distributor, merchant, or other seller providing goods or services
             that are required for the conduct of a Federal program. Consequently, the vendor
             payment information for the Recovery Act competitive transformation grant was
             reported incorrectly.

             Further, the Authority lacked sufficient quality control procedures to ensure that
             reporting of the required information was accurate. The Authority’s compliance
             director said that the Authority could not make changes to previously reported
             information. However, according to the Office of Management and Budget, the
             recipient or the Federal agency may initiate a change to a prior reporting process if it
             deems the change to be appropriate. The only field that cannot be edited is the jobs
             created field in FederalReporting.gov. The Authority could have made changes to
             previously reported quarters at least since September 24, 2010. However, it did not
             do so.

             The Recovery Act formula and competitive transformation grants were closed as
             of December 2010, and March 2012, respectively. However, the Recovery Act
             competitive senior grant remained open as of July 5, 2012.

Conclusion

             The Authority did not accurately report vendor payments on the
             FederalReporting.gov Web site for all three of the Recovery Act grants it
             received. This condition occurred because the Authority lacked an understanding
             of Federal requirements and sufficient quality control procedures to ensure
             accurate reporting of required information. As a result, the public did not have
             access to accurate information relating to the Authority’s expenditures of the
             Recovery Act funds, and the Authority’s use of Recovery Act funds was not
             transparent.

Recommendations

             We recommend that the program center coordinator of HUD’s Office of Public and
             Indian Housing require the Authority to
                                               19
4A.   Ensure that appropriate corrections are made to the amount and number of
      expenditures reported on the FederalReporting.gov Web site for the
      Recovery Act competitive senior grant.




                              20
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

   •   Applicable laws and regulations; the Recovery Act; Office of Management and Budget
       Memorandum M-10-34; Federal Register Volume 74, Number 77, issued on April 23, 2009;
       HUD’s program requirements at 24 CFR Parts 85, 135, 905, 941, and 970; 29 CFR Part 5;
       HUD’s Office of Public and Indian Housing notices; HUD Handbook 7460.8, REV-2;
       Recipient Reporting Data Model V4.0; form HUD-5370 (11/2006); and interest rates
       published by the U.S. Treasury.

   •   The Authority’s accounting records and bank statements; annual audited financial
       statements for fiscal years 2008, 2009, and 2010; contract files; policies and procedures;
       board meeting minutes for March 2009 through September 2011; organization chart;
       program annual contributions contract with HUD; 5-year and annual plans; Line of Credit
       Control System information and requests for payment; specifications and drawings; and
       other documents related to the mixed-finance structure.

   •   Documents relating to the mixed-finance structure provided by the Authority’s consultant.

   •   Contractors’ invoices, change order logs, payroll reports, listing of subcontractors, and
       contracts with subcontractors.

   •   Architect and engineer’s field meeting minutes, invoices, and change order logs.

   •   HUD’s files for the Authority.

We also interviewed the Authority’s employees, contractor, architect and engineer, and
consultant and HUD’s staff.

Finding 1
We reviewed six randomly selected work items to determine whether the Authority conducted
small purchases procurement in accordance with HUD’s requirements and its own policies and
procedures. Four of the six work items were paid for from the Authority’s Public Housing
Capital Fund program. The Recovery Act grants funds were used for the payment of the
remaining two work items. The deficiencies noted in the procurement of the four items are
disclosed in a separate memorandum. In addition, we reviewed five contracts that were procured
through above small purchases procedures to determine whether the Authority procured and
executed the contracts in accordance with HUD’s requirements and its policies and procedures.

Also, we reviewed 100 percent of the change orders for all three construction contracts relating
to the Recovery Act program grants. We reviewed the change orders to ensure that documents
were maintained to support the change order amount requested, change order items were not out
of the scope of the contract, and change orders were approved before the work was completed.


                                                 21
Finding 2
We reviewed the Authority’s Recovery Act program grant expenditures in their entirety as of
February 27, 2012. We reviewed the dates on which the Authority and its for-profit affiliate
received the funds and the dates of disbursements. We also reviewed the items purchased and
services acquired to determine whether eligible items or services were acquired. We determined
the interest amount the U.S. Treasury was caused to pay as a result of the late disbursements of
payments either by the Authority or its for-profit affiliate. To determine the interest amount, we
used the 10-year daily interest rate published by the U.S. Treasury. We determined the
cumulative funds on hand by subtracting the amount of funds expended from the cumulative
total amount of funds received. Using the daily interest rate, we determined the interest amount
of the cumulative total funds on hand.

We reviewed the Authority’s mixed-finance amendment to the consolidated annual contributions
contract to ensure that the development sources and funds use were within the HUD-approved
specifications. In addition, we reviewed the Authority’s general ledger to determine whether
supporting invoices, check payments, and deposits were maintained.

Further we reviewed the pay applications submitted by the construction contractors to ensure that
proper retainage from the payment was withheld and the payment amount did not exceed the
authorized amount in the executed contracts. In addition, we reviewed the invoices submitted by
the architect and engineer to determine whether the total payment amount was made in
accordance with the executed contracts.

Finding 3
We reviewed 16 of at least 1,781 products randomly selected to determine whether the products
were manufactured in the United States and if not, appropriate waivers were received from HUD.
To determine whether products were manufacture in the United States, we reviewed the invoices
for exact specifications of the products and conducted online searches on the product and
manufacturer, directly contacted the manufacturer, or physically inspected the product.
Specifically, we physically inspected the manufacturer’s label on the refrigerator to determine
whether it was made in the United States.

We reviewed 258 randomly selected certified payroll reports to determine whether reports were
maintained on file, wage payments included on the weekly reports matched the actual payments,
and the method of fringe benefits was identified on the weekly reports. We selected our sample
of 258 payroll reports based on 33 specific employees, also randomly selected. To select the 33
employees, we obtained a listing of all employees who worked on the construction projects,
which totaled 506 for each contractor and subcontractor. We then identified the payroll reports
on which the 33 employees were listed, which resulted in 258 payroll reports. We reviewed the
payroll reports and pay stubs to determine whether the Authority ensured that its contractors and
the Authority’s for-profit affiliate’s contractor paid prevailing wages in accordance with the
Davis-Bacon Act. We compared the payroll reports to the pay stubs provided by the contractors
to determine the amounts paid to the employees. We compared the wages paid to the employees
with the applicable prevailing wages.




                                                22
In addition, of the 45 subcontractors, we randomly selected contracts for 17 to determine whether
the Section 3 clause was included in those contracts.

Finding 4
We reviewed all of the information reported in FederalReporting.gov as of February 27, 2012,
which was for 11 quarters from quarter ending date September 30, 2009, through quarter ending
date December 31, 2011. We reviewed the information reported to ensure that the public had
access to accurate information relating to the Authority’s expenditures of the Recovery Act
program grant funds.

We relied in part on data maintained by the Authority in its systems. Although we did not
perform a detailed assessment of the reliability of the data, we performed a minimal level of
testing and found the data to be adequately reliable for our purposes.

We performed onsite audit work between October 2011 and April 2012 at the Authority’s offices
located at 1402 173rd Street, Hammond, IN. The audit covered the period March 18, 2009,
through September 30, 2011, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               23
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

               •      Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

               •      Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 24
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

             •      The Authority lacked an understanding of Federal and its own procurement
                    requirements, and adequate procedures and controls to ensure that
                    procurements were conducted in accordance with HUD’s requirements and
                    the Authority’s policies and procedures (see finding 1).

             •      The Authority lacked quality control procedures for its program grant
                    disbursements to ensure that it and its for-profit entity administered the
                    Recovery Act program grant funds in accordance with HUD’s requirements
                    (see finding 2).

             •      The Authority lacked an understanding of Federal requirements and
                    adequate procedures and controls to ensure that Recovery Act program
                    contractors purchased products that met Federal buy-American requirements
                    of the Recovery Act, provided all payroll reports and identified the payment
                    method of fringe benefits on all weekly payroll reports, and included the
                    Section 3 clause in its contracts with subcontractors (see finding 3).

             •      The Authority lacked an understanding of Federal requirements and
                    sufficient quality control procedures to ensure the accurate reporting of
                    required information (see finding 4).




                                              25
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation          Ineligible 1/   Unsupported 2/   Funds to be put
                 number                                            to better use 3/
                         1A                             $12,300
                         1B                              26,875
                         1D                                                 $7,000
                         1E                             174,471
                         1F                              20,575
                         2A            $1,625
                         3A                              46,828
                       Total           $1,625          $281,049             $7,000

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                             26
Appendix B

             AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                                       Auditee Comments 4

                                                      HAMMOND HOUSING AUTHORITY
                                                          rd
                                                1402 - 173 Street, Hammond, Indiana 46324
                                                 Phone (219) 989-3265 Fax (219) 989-3275
                                                             TDD (800) 743-3333


                      To:              Kelly Anderson
                                       Regional inspector General for Audit, 5AGA

                      From:            Carmen Paniagua
                                       Executive Director

                      Date:            July 11, 2012

                      Subject:         Response to Audit Findings



                      FINDING 1

                      Small Purchases Were Not Properly Administered – A Phase I environmental was needed for the
                      LIHTC application, the one submitted was a year old from a prior attempt in submitting application.
                      At the request of the investor we had to update Phase I environmental, this time the investor
                      required a change in the contractor’s insurance clause which contractor refused to comply with.
                      Due to the time constraints and the severity of the problem; the Housing Authority believed it was
Comment 1             reasonable to use Amereco to perform the Phase I environmental. This was because Amereco has
                      extensive experience in doing Phase I reports, and had all pertinent information on file from
                      previous work performed on our site. At the same time the Housing Authority did not consider it
                      would be feasible to re-procure another contractor while it could jeopardize the tax credit
                      application.

                      Procurement Documents for Above Small Purchase Threshold Contracts Were Not Consistently
Comment 2             Maintained - The Authority concedes with the finding, the board minutes have been ratified
                      (Attachment 1) and in the future the authority will implement adequate quality control procedures
                      to ensure that its contracts are procured and executed in accordance with Federal requirements.

                      As a proactive measure Carmen Paniagua, Executive Director and Brian McKerrall, Director of
                      Modernization attended a NAHRO Procurement Training on May 7-9, 2012.

                      Units Were Sold at Less Than the Assessed Value – The Authority disposed of 112 units for a mixed
Comment 3             finance development, attached find the letters from U.S. Department of Housing and Urban
                      Development Special Application Center(Attachment 2) approving the disposal of units for the price
                      of $940,000; price did not chance due to the decline in real estate market.

                      The Approval of Change Orders Limited Competition - The Authority feels all change orders were
Comment 4             reasonable and done within the scope of the contracts and a couple at the insistence of the investor
                      for the mixed finance/LIHTC American Heartland Homes One Project.

4
    This excludes 44 pages of documentation that was not necessary for understanding the Authority’s comments.

                                                              27
Ref to OIG Evaluation                              Auditee Comments

               FINDING 2

               Recovery Act Grant Funds Were Not Disbursed in a Timely Manner – The Authority did not profit
Comment 5      from any interest from these funds and most were done within a reasonable time. The vast majority
               were done within three (3) days. For future mixed finance projects we will change our procedure to
               comply with CFR 941.612 (b) (1).

               FINDING 3

Comment 6      The Authority Did Not Follow the Buy-American Requirements of the Recovery Act – The Authority
               has received waivers from HUD for the tankless water heaters and Mini-Splits HVAC units
               (Attachment 3); we are currently waiting on the response from HUD on the submitted waivers for
               floor tile, wire mesh, thermostats and refrigerators (Attachment 4).

               The Davis Bacon Act Was Not Followed – The Authority has contacted the general contractor
               regarding corrections needed on the certified payrolls; of the seventeen (17) payrolls in question
               fifteen (15) have been successfully corrected.

               The Section 3 Clause Was Not Included in the Contracts – The HUD Handbook No. 7460.8 Rev. 2,
               Section 10.5 D gives three (3) methods of incorporation of required clauses which includes “by
               reference”. The Hammond Housing Authority believes a clause that reference the project manual
               (includes all required clauses) meets the requirements of Section 37(d) of HUD 5370. For future
               projects, the HHA will make sure that all required clauses are incorporated into the subcontracts.
               The Authority will make the necessary changes to include Section 3 clause on future contracts.

               The Authority Lacked and Understanding of Federal Requirements and Quality Controls – The
               Authority concedes with the finding and has implemented a corrective action plan for future
               projects.

               FINDING 4

Comment 7      The Authority Did Not Accurately Report Required Information – The Authority attempted to
               remediate the finding but was unable to change previous reports already submitted; however the
               change was made in current report. (Attachment 5)




                                                      28
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Authority stated it did not consider it would be feasible to re-procure another
            contractor due to time constraints and the possibility of its tax credit application
            being jeopardized. However, the Authority was unable to provide documentation
            to show that it did not have to follow its small purchase procurement policies. In
            addition, the Authority was unable to provide documentation that following its
            small purchase procurement policies for procuring services for its Phase I
            environmental assessment in June 2010 would jeopardize its low income housing
            tax credit program for which it applied in January 2009 and received in April
            2009.

Comment 2   We acknowledge the Authority’s future plans to implement adequate quality
            control procedures to ensure contracts are procured and executed in accordance
            with Federal requirements.

Comment 3   According to the Authority, it disposed of 112 housing units based on the amount
            of $940,000 included in its application, which was approved by HUD’s Special
            Application Center. As cited in finding 1 of this report, the Authority sold the
            112 units at the assessed value for 110 units only. HUD requires the Authority to
            dispose of property for not less than fair market value, when HUD approves the
            disposition of the real property. According to HUD’s Special Application Center,
            the Authority’s disposition application did not provide any details as to why the
            appraisal was only for 110 units instead of 112. Further, the correction should
            have been reflected in the amendment requests from the Authority. HUD
            approved the disposition request based on the limited information supplied by the
            Authority at the time.

Comment 4   The Authority feels all change orders were reasonable, within the scope of the
            contracts, and completed at the insistence of its mixed-finance development
            investor. However, it did not provide any documentation to support the approved
            change orders were reasonable and within the scope of the contracts. The
            Authority was required to follow Federal regulations requiring full and open
            competition in all procurement transactions. However, contrary to HUD
            requirements, the Authority completed additional work as change orders to
            contracts procured through sealed bidding or request for proposal, based on its
            investor’s insistence and because each of the subcontractors were still on site.

Comment 5   According to the Authority, it did not profit from any interest from the Recovery
            Act grant funds due to delayed disbursements. While this may be true, it caused
            the United States Treasury to pay interest. Further, the Authority lacked quality
            controls to ensure Federal requirements were followed. We acknowledge the
            Authority’s future plans to change its procedures to ensure it complies with HUD
            requirements.




                                             29
Comment 6   Based on the documentation provided by the Authority and further consideration,
            we revised finding 3 and recommendations accordingly. We acknowledge the
            waiver that the Authority received from HUD for the ceramic floor tiles totaling
            $1,297; therefore, we reduced the questioned costs from $48,125 to $46,828.

Comment 7   The Authority stated it changed the current report concerning finding 4.
            However, it did not provide documentation to support its revisions in the current
            report in the FederalReporting.gov Web site. Further, the category of total
            number of vendors is not cumulative and aggregated in the quarterly report for the
            second quarter of 2012.




                                            30
Appendix C

      FEDERAL AND THE AUTHORITY’S REQUIREMENTS

Finding 1

Regulations at 24 CFR 85.36(b)(9) state that grantees and subgrantees will maintain records
sufficient to detail the significant history of a procurement. These records will include but are
not necessarily limited to the following: rationale for the method of procurement, selection of
contract type, contractor selection or rejection, and the basis for the contract price.

The Authority’s procurement policy, section III(B)(4), states that for small purchases in excess
of $2,000 but not exceeding $75,000, no fewer than three offerors should be solicited.

HUD Handbook 7460.8, REV-2, paragraph 3.2(D), states that the independent cost estimate
must be prepared before the solicitation of offers.

HUD Handbook 7460.8, REV-2, paragraph 5.4, states that quotations for small purchases may be
obtained in writing (hard copy or email), orally, by fax, via catalogs, by letter, through electronic
means, e.g., the Internet, through paid advertisement, or by displaying the solicitation in a public
place. The method should be appropriate to the purchase (e.g., obtaining price quotes by phone
for a commercially available supply item). Public housing agencies may establish in their
Procurement Policies dollar thresholds or other requirements for the use of written and oral
solicitations. Written solicitations are used when it is necessary to provide vendors with detailed
information that cannot be conveyed orally (e.g., by phone), or with detailed quotation
evaluation information. The Contracting Officer should determine the best method, given the
situation.

HUD Handbook 7460.8, REV-2, paragraph 10.8(C)(2), states that contracts must not exceed a
period of 5 years, including options for renewal or extension.

The Authority’s procurement policy, section II(B)(6), states that the executive director or his or
her designee must ensure that unsuccessful firms are notified within 10 days after contract
award.

The Authority’s procurement policy, section II(B)(3), states that the executive director or his or
her designee must ensure that for procurements other than small purchases, public notice is given
of each upcoming procurement at least 10 days before a solicitation is issued.

HUD regulations at 24 CFR 85.36(d)(2)(ii(c) state that all bids will be publicly opened at the
time and place prescribed in the invitation for bids.

The Authority’s procurement policy, section III(C)(2), states that an invitation for bid must
include a statement that award will be made to the lowest responsible and responsive bidder
whose bid meets the requirements of the invitation for bids.

                                                 31
The Authority’s request for qualifications, issued on February 10, 2009, General Conditions (2),
states that in the event that there are changes or clarifications to this request for qualifications,
the Authority should issue an addendum.

The Authority’s procurement policy, section II(c)(2), states that purchases over $75,000 must be
approved by the board of commissioners.

HUD regulations at 24 CFR 970.19(a) state that when HUD approves the disposition of real
property of a development, in whole or in part, the housing authority must dispose of the
property promptly for not less than fair market value (in which case there is no showing of
commensurate public benefit required), unless it authorizes a negotiated sale for reasons found to
be in the best interest of the authority or the Federal Government, or dispose of the property for
sale for less than fair market value (where permitted by State law), based on commensurate
public benefits to the community, the authority, or the Federal Government justifying such an
exception.

Regulations at 24 CFR 85.36(c)(1) state that all procurement transactions will be conducted in a
manner providing full and open competition consistent with the standards of section 85.36.

HUD Handbook 7460.8, REV-2, paragraph 2.4, states that regardless of the authority delegated,
it is the responsibility of the contracting officer to seek the best value and greatest overall benefit
for the housing authority in response to the needs desired.

HUD Handbook 7460.8, REV-2, paragraph 1.9 (Change Order) states that all change orders must
be within the scope of the contract.

General conditions for construction contracts found on form HUD-5370 (11/2006), 29(a), state
that the contracting officer may at any time, without notice to the sureties, by written order
designated or indicated to be a change order, make changes in the work within the general scope
of the contract including changes in (1) the specifications (including drawings and designs); (2)
the method or manner of performance of the work; (3) housing authority-furnished facilities,
equipment, materials, services, or site; or (4) directing the acceleration in the performance of the
work.

General conditions for construction contracts found on form HUD-5370 (11/2006), 29(b), state
that any other written order or oral order (which as used in this paragraph (b), includes direction,
instruction, interpretation, or determination) from the contracting officer that causes a change
must be treated as a change order under this clause, provided that the contractor gives the
contracting officer written notice stating (1) the date, circumstances, and source of the order and
(2) that the contractor regards the order as a change order.

General conditions for construction contracts found on form HUD-5370 (11/2006), 29(d), state
that if any change under this clause causes an increase or decrease in the contractor’s cost of or
the time required for the performance of any part of the work under this contract, whether or not
changed by any such order, the contracting officer must make an equitable adjustment and

                                                  32
modify the contract in writing. However, except for an adjustment based on defective
specifications, no proposal for any change under form HUD-5370 (11/2006), 29(b), must be
allowed for any costs incurred more than 20 days (5 days for oral orders) before the contractor
gives written notice as required in the case of defective specifications for which the housing
authority is responsible; the equitable adjustment must include any increased cost reasonably
incurred by the contractor in attempting to comply with the defective specifications.

Finding 2

The declaration of restrictive covenants, executed on June 29, 2010, between the Authority and
its for-profit entity, section 4, states that the Authority should cause the for-profit entity to and
the for-profit entity must develop the project in compliance with the applicable public housing
requirements.

The declaration of restrictive covenants, executed on June 29, 2010, between the Authority and
its for-profit entity, states that the Authority and its for-profit entity have entered into a
regulatory and operating agreement and other agreements, whereby the Authority has agreed to
provide its for-profit entity with assistance obtained under the mixed-finance annual
contributions contract amendment (that is, Recovery Act competitive transformation grant of $10
million) to pay a portion of the development cost of the project and with operating fund
assistance to assist in operating and maintaining the low-income character of the public housing
units in the project. In return for the receipt of such assistance, the Authority’s for-profit entity
has agreed to develop, operate, and maintain the project in accordance with all requirements
applicable to public housing, including without limitation the Act; HUD regulations hereunder;
the annual contributions contract; the mixed-finance annual contributions contract amendment;
this declaration [declaration of restrictive covenants]; and all pertinent Federal statutory,
executive order, and regulatory requirements, as those requirements may be amended form time
to time (all such requirements hereafter collectively referred to as the “applicable public housing
requirements”).

Regulations at 24 CFR 941.612(b)(1) state that the housing authority must release funds to its
[mixed-finance] partner promptly, normally within 2 working days of receipt of the funds from
HUD, and only in accordance with the ratio approved by HUD. The authority’s [mixed-finance]
partner must take prompt action to distribute the funds, normally within 2 working days of
receipt of the funds from the authority.

HUD’s Public and Indian Housing Notice 2009-12, section VII, states that the housing authority
must requisition funds only when payment is due and after inspection and acceptance of the
work and must distribute the funds within 3 working days of receipt of the funds.

The mixed-finance amendment to the consolidated annual contributions contract, executed
between HUD and the Authority, dated June 29, 2010, section 6(4), states that the project will be
developed in accordance with the HUD-approved budget and sources and uses set forth in
exhibit F of this mixed-finance annual contributions contract amendment.




                                                  33
Regulations at 24 CFR 85.20(b)(2) state that grantees and subgrantees must maintain records
which adequately identify the source and application of funds provided for financially assisted
activities. These records must contain information pertaining to the grant or subgrant award and
authorizations, obligations, unobligated balances, assets, liabilities, outlays or expenditures, and
income.

Regulations at 24 CFR 85.20(b)(3) state that effective control and accountability must be
maintained for all grant and subgrant cash, real and personal property, and other assets. Grantees
and subgrantees must adequately safeguard all such property.

Finding 3

The American Recovery and Reinvestment Act of 2009, section 1605(a), states that none of the
funds appropriated or otherwise made available by this Act may be used for a project for the
construction, alteration, maintenance, or repair of a public building or public work unless all of
the iron, steel, and manufactured goods used in the project are produced in the United States.

Federal Register Volume 74, No. 175, issued September 11, 2009, states, “The exceptions
determined applicable, without the necessity of a grantee to seek an individual exception
determination, are as follows: (1) If another Federal agency has determined that an exception to
the Buy American requirement is applicable under section 1605(b), for a project including public
housing, HUD will accept that agency’s determination and permit the public housing agency to
apply that exception for the remainder of HUD-assisted work in that project. (2) If another HUD
Program Office has determined that an exception to the Buy American requirement is applicable
under section 1605(b) for a project, and an analysis supports its application to another request,
HUD’s Office of Public and Indian Housing may accept that determination and permit the
authority to apply that exception to the remainder of the Recovery Act competitive grant work in
that project. (3) Where the size of the Recovery Act competitive grant is less than $100,000, the
Buy American requirement is not applicable. (4) Where the size of a contract funded with
Recovery Act competitive grant assistance is less than $100,000, regardless of the size of the
authority, the Buy American requirement is not applicable. (5) For any project substantially
under contract or under way prior to acceptance of Recovery Act competitive grant funds, the
Buy American requirement is not applicable.”

U.S. Department of Labor regulations at 29 CFR 5.5(a)(3)(ii) require contractors to submit
weekly a copy of the payrolls to the Federal agency contracting for or financing the construction
project, accompanied by a signed “statement of compliance” indicating that the payrolls are
correct and complete and that each laborer or mechanic has been paid not less than the proper
Davis-Bacon prevailing wage rate for the work performed.

The “statement of compliance,” item (4), requires identification of payment method for fringe
benefits.

Regulations at 24 CFR 135.32(b) state that each recipient has the responsibility to comply with
Section 3 in its own operations and ensure compliance in the operations of its contractors and
subcontractors. This responsibility includes but may not be necessary limited to notifying

                                                 34
potential contractors for Section 3-covered projects of the requirements of this part and
incorporating the Section 3 clause set forth in section 135.38 in all solicitations and contracts.

Regulations at 24 CFR 135.38(d) state that the contractor agrees to include this Section 3 clause
in every subcontract subject to compliance with regulations in 24 CFR Part 135 and agrees to
take appropriate action, as provided in an applicable provision of the subcontract or in this
Section 3 clause, upon a finding that the subcontractor is in violation of the regulations in 24
CFR Part 135.

Finding 4

Recipient Reporting Data Model, Version 4, Total Federal Amount of Recovery Act
Expenditure, states that it is the cumulative total for the amount of Federal fund expenditures and
it should not exceed the amount of award.

Recipient Reporting Data Model, Version 4, Total Number of Payments to Vendors Less Than
$25,000/Award, states that it is the total number of payments by prime recipient to vendors less
than $25,000.

Recipient Reporting Data Model, Version 4, Total Amount of Payments to Vendors Less Than
$25,000/Award, states that the amounts reported are cumulative for the award.

Recipient Reporting Data Model, Version 4, Vendor Data Element, Payment Amount, states that
it is the amount invoiced to the vendor (aggregated) that will be paid with the Recovery Act
funds. In addition, payments exceeding $25,000 for the quarter are reported in this field when
the amount reported is cumulative and aggregated by vendor.

Office of Management and Budget Memorandum M-10-34(8) states that the recipient or the
Federal agency may initiate the change to a prior reporting process if it deems the change to be
appropriate. In either scenario, the recipient must provide the agency with documentation to
support the requested change. The Federal agency must determine that the change is “material.”
If so, it may be submitted as a requested change.

The FederalReporting.gov Web site’s general frequently asked questions (12) states that vendors
provide products or services in support of the mission.

Office of Management and Budget Memorandum M-09-21, section 2.2, states that the prime
recipient is responsible for reporting data on payments made to both subrecipients and vendors.

Office of Management and Budget Memorandum M-09-21, section 2.2, states that a vendor is a
dealer, distributor, merchant, or other seller providing goods or services that are required for the
conduct of a Federal program.




                                                 35
